      DEPARTMENT OF HOMELAND SECURITY

        Ofﬁce of Inspector General



                           DHS CHALLENGES IN

                        CONSOLIDATING TERRORIST

                         WATCH LIST INFORMATION





Notice: The Department of Homeland Security, Ofﬁce of Inspector General, has redacted this report for public release
based on input from relevant government entities. Those redactions are identiﬁed as (b)(2), comparable to 5 U.S.C. section
552(b)(2). A review under the Freedom of Information Act will be conducted upon request.





                  Ofﬁce of Information Technology

OIG-04-31                                                                   August 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                          Contents


  Introduction.................................................................................................................................... 3


  Results in Brief .............................................................................................................................. 3


  Background .................................................................................................................................... 4


  Findings ......................................................................................................................................... 6


          DHS Is Not Overseeing Interagency Consolidation Activities ............................................. 6


          Interagency Watch List Consolidation Could Be Improved ............................................... 12


          Additional Issues Relating to Interagency Sharing 

          of Terrorist Information Need to be Addressed .................................................................. 25


  Recommendations………............................................................................................................ 30


  Management Comments and OIG Evaluation ............................................................................. 31


Appendices

  Appendix A:             Scope and Methodology.....................................................................................              39

  Appendix B:             Management Comments.....................................................................................                41

  Appendix C:             Major Contributors to This Report .....................................................................                 46

  Appendix D:             Report Distribution.............................................................................................        47



Abbreviations

  CAPPS II                    Computer Assisted Passenger Prescreening System      

  CBP                         Customs and Border Protection 

  DHS                         Department of Homeland Security 

  FBI                         Federal Bureau of Investigation 

  FTTTF                       Foreign Terrorist Tracking Task Force 

  GAO                         Government Accountability Ofﬁce, (formerly General Accounting Ofﬁce) 

  HSPD                        Homeland Security Presidential Directive 

  IAIP                        Information Analysis and Infrastructure Protection 




                       DHS Challenges In Consolidating Terrorist Watch List Information                                                           Page 1

Contents


   IT     information technology
   OIG    Ofﬁce of Inspector General
   TSC    Terrorist Screening Center
   TTIC   Terrorist Threat Integration Center




Page 2              DHS Challenges In Consolidating Terrorist Watch List Information
OIG

Department of Homeland Security
Ofﬁce of Inspector General


    Introduction

                                   Terrorist and criminal “watch lists” are important tools for controlling and
                                   protecting U.S. borders. Traditionally, federal agencies have used various
                                   means, developed in response to their individual missions, to manage watch
                                   list information. The attacks of September 11, 2001, underscored the need
                                   for standardization and consolidation of the terrorist watch lists to help ensure
                                   homeland security. According to the Homeland Security Act of 2002,1 DHS is to
                                   play a major role in watch list consolidation activities.

                                   As part of its ongoing responsibilities to evaluate the effectiveness of DHS
                                   programs and activities, the OIG conducted a review of terrorist watch list
                                   consolidation efforts. The objectives of the review were to: (1) determine DHS’
                                   role in working with other federal agencies to consolidate terrorist watch list
                                   systems and operations in response to recent legislation and executive branch
                                   direction; (2) evaluate the effectiveness of plans and activities to standardize
                                   and consolidate the watch lists to address the new requirements; and (3) identify
                                   any obstacles or challenges encountered and determine whether changes to
                                   the interagency systems integration approach are needed. The scope and
                                   methodology of this review are discussed in Appendix A.


    Results in Brief

                                   DHS is not playing a lead role in consolidating terrorist watch list information.
                                   Instead, these consolidation activities are generally administered by the entities
                                   that were responsible for collecting and disseminating terrorist information
                                   prior to DHS’ formation. DHS ofﬁcials said that the new department lacked the
                                   resources and infrastructure to assume leadership for the consolidation. While
                                   this contention has merit, DHS can still play a more robust role than at present
                                   by overseeing and coordinating watch list consolidation activities across agency
                                   lines. Such oversight would help DHS fulﬁll the role required by the Homeland
                                   Security Act and better ensure that the past ad hoc approach to managing watch
                                   list consolidation is not continued.
    1
        Public Law 107-296 (Nov. 25, 2002), codiﬁed at 6 USC 101 et seq.



                             DHS Challenges In Consolidating Terrorist Watch List Information                    Page 3
                            Stronger DHS leadership and oversight would also help improve current watch
                            list consolidation efforts. Although some progress toward streamlined processes
                            and enhanced interagency information sharing has been made, the consolidation
                            is hampered by a number of issues that have not been coordinated effectively
                            among interagency participants. Speciﬁcally, in the absence of central leadership
                            and oversight for the watch list consolidation, planning, budgeting, stafﬁng, and
                            requirements deﬁnition continue to be dealt with on an ad hoc basis, posing a risk
                            to successful accomplishment of the goal. A number of additional challenges,
                                                                                                                           (b)(2)High
                            such as i    (b)(2)High
                                                                                               , privacy,
                            (b)(2)High
                                                                                        , could be pursued in
                            the context of a centrally coordinated approach to watch list management.

Background

                            Effective use of information technology (IT) is fundamental for the federal
                            government to accomplish its counterterrorism mission. For example, compiling
                            automated data on potential or known terrorists to check against the names
                            of foreigners entering or already present in the U.S. is one critical means of
                            protecting the homeland. In April 2003, the General Accounting Ofﬁce, recently
                            renamed as the Government Accountability Ofﬁce (GAO), reported that nine
                            federal agencies used 12 separate systems and databases, each developed in
                            response to the agencies’ individual legal, cultural, and systems environments, to
                            support federal law enforcement and border security processes.2

                            Generally called “watch lists,” these systems actually serve a variety of purposes
                            and contain different types of information. For example, the Department of
                            State’s Consular Lookout and Support System was designed to support visa and
                            passport issuance. U.S. Customs and Border Protection’s (CBP) Interagency
                            Border Inspection System facilitates border crossing inspections and includes
                            information on potential terrorists, as well as people suspected of narcotics
                            trafﬁcking or other law enforcement violations. The Federal Bureau of
                            Investigation’s (FBI) Violent Gang and Terrorist Organization File helps manage
                            information on organized criminal activities, including domestic terrorism.
                            Further, the Transportation Security Administration’s “no-ﬂy” and selectee lists
                            are used to determine whether a person may board an airplane.

                            The Department of State’s TIPOFF database was the only one that can be
                            considered purely a terrorist watch list. TIPOFF contained intelligence data that

2
 Information Technology: Terrorist Watch Lists Should Be Consolidated to Promote Better Integration and Sharing, U.S. General
Accounting Ofﬁce (GAO-03-322, April 2003).


Page 4                                     DHS Challenges In Consolidating Terrorist Watch List Information
                            was shared with other agencies responsible for ensuring that potential terrorists do
                            not enter the U.S. For example, an unclassiﬁed subset of TIPOFF data was shared
                            with the Consular Lookout and Support System, Interagency Border Inspection
                            System, National Automated Immigration Lookout System, and the Canadian and
                            Australian governments.

                            Although TIPOFF data was being shared, the extent of sharing was inconsistent
                                                                   (b)(2)High
                            among other watch list systems.
                            (b)(2)High
                                                                        Where information was shared, it was
                            not supported by common architectures because individual agencies developed
                            and implemented interfaces with other federal agency watch list systems on an ad
                            hoc basis. This situation was complicated by a lack of policies and procedures
                            to govern the sharing, and there was no way of ensuring that consistent data was
                            on each agency’s watch list. The consequence, GAO reported, was the kind of
                            overly complex, unnecessarily inefﬁcient, and potentially ineffective network that
                            is associated with unstructured and non-standard database environments. In the
                            current environment of increased terrorist activity and security awareness, “stove
                            piped” management of critical watch list information is no longer tolerable.

                            Recognizing the need for a more concerted approach to ensuring national
                            security, Congress passed legislation that calls for increased information sharing
                            among government agencies. Speciﬁcally, the Homeland Security Act of 2002
                            established DHS and gave it signiﬁcant responsibility to coordinate the sharing
                            of information to protect the U.S. from terrorist threats. The law requires the
                            DHS Under Secretary for Information Analysis and Infrastructure Protection
                            (IAIP) to consult with the Director of Central Intelligence and other appropriate
                            intelligence, law enforcement, or other elements of the federal government to
                            establish collection priorities and strategies for information relating to threats
                            of terrorism against the U.S.3 The law also directs the IAIP Under Secretary
                            to review, analyze, and make recommendations to improve the policies and
                            procedures governing the sharing of law enforcement, intelligence, intelligence-
                            related, and other information relating to homeland security.4 According to the
                            law, “homeland security information” is deﬁned as any information possessed by
                            a federal, state, or local agency that: (1) relates to the threat of terrorist activity;
                            (2) relates to the ability to prevent, interdict, or disrupt terrorist activity; (3) would
                            improve the identiﬁcation or investigation of a suspected terrorist or terrorist
                            organization; or (4) would improve the response to a terrorist act. Terrorist watch
                            lists and related consolidation activities are clearly covered by this deﬁnition.5

3
  6 USC 121 (d)(10).
4
  6 USC 121 (d)(8).
5
  6 USC 482.

                       DHS Challenges In Consolidating Terrorist Watch List Information                        Page 5
                            Such legislation is kindred to earlier legislation that called for increased
                            interagency sharing. The USA Patriot Act,6 enacted in October 2001, directed that
                            foreign intelligence or counterintelligence information obtained during criminal
                            investigations be disclosed to federal law enforcement, intelligence, immigration,
                            national defense, or national security ofﬁcials to assist them in performing their
                            ofﬁcial duties. Further, in May 2002, the Enhanced Border Security and Visa
                            Entry Reform Act7 required federal law enforcement and intelligence agencies
                            to share information with the Department of State and the Immigration and
                            Naturalization Service regarding the admissibility and deportation of aliens.


Findings
DHS Is Not Overseeing Interagency Consolidation Activities

                            DHS is not playing a lead role in coordinating the sharing of terrorist watch list
                            information. Instead, terrorist watch list consolidation activities are conducted
                            by the federal organizations that were primarily responsible for collecting and
                            disseminating terrorist information prior to DHS’ formation. DHS ofﬁcials said
                            that the newly created department lacked the resources and infrastructure to
                            assume leadership for the watch list consolidation effort. While this contention
                            has merit, DHS can still play a more robust role than at present by overseeing
                            and coordinating watch list consolidation activities across agency lines. Such
                            oversight would help DHS fulﬁll its coordination responsibility as required by the
                            Homeland Security Act, better ensuring that the ad hoc watch list management
                            pattern of the past is not continued.

                            DHS HAS NOT FULFILLED ITS LEADERSHIP RESPONSIBILITY

                            With passage of the Homeland Security Act, Congress expected that DHS would
                            help put an end to the ineffective counterterrorist information sharing activities
                            of the past. Forged from 22 separate agencies with a range of homeland security
                            related missions, the new department was designed to facilitate interagency
                            coordination and cooperation, as well as to conduct terrorist threat risk analysis
                            and assessment. Not just Congress, but ofﬁcials both internal and external to


6
  Public Law 107-56, Uniting and Strengthening America by Providing Appropriate Tools Required To Intercept and Obstruct Terrorism 

(USA Patriot Act) Act of 2001, October 26, 2001.

7
  Public Law 107-173, May 14, 2002.





Page 6                                    DHS Challenges In Consolidating Terrorist Watch List Information
     DHS, anticipated that in this context DHS would play a lead role in terrorist
     watch list consolidation. With its range of customs, immigration, transportation
     security, infrastructure protection, and threat analysis responsibilities, it appeared
     logical for DHS to assume this lead responsibility. Such a role would include
     coordinating interagency planning, policy formation, and oversight of watch list
     consolidation activities. Such a role also would include taking an overarching
     view of watch list consolidation activities across government and no longer
     managing on an organization-by-organization basis. Given its responsibilities
     under the Homeland Security Act to improve the policies and procedures
     governing the sharing of information relating to homeland security threats, IAIP is
     the organization within the department that should play this role.

     Despite these expectations, IAIP has not provided the leadership of the watch
     list consolidation effort that is needed. Speciﬁcally, DHS is not carrying out
     signiﬁcant responsibilities assigned to it under the Homeland Security Act, i.e.,
     orchestrating the integration of terrorist information and establishing national
     policies and guidelines governing the use of such information. Instead, other
     federal entities that have traditionally collected, analyzed, and disseminated watch
     list information continue to conduct these efforts under the auspices of two newly
     created interagency organizations: The Terrorist Threat Integration Center (TTIC)
     and the Terrorist Screening Center (TSC).

     The President called for the creation of the TTIC in his State of the Union
     address in January 2003, by directing that the leaders of the FBI, DHS, Central
     Intelligence Agency, and Department of Defense develop a single location for
     merging, analyzing, and disseminating terrorist threat related information to
     appropriate recipients. The President directed that this new organization be
     placed under the auspices of the Director of Central Intelligence. Accordingly,
     Director of Central Intelligence Directive 2/4 provided guidance for establishing
     the new center. While a director for the new center was appointed from the
     Central Intelligence Agency, a deputy director was assigned from the FBI. To
     support TTIC operations, staff have been drawn from a number of intelligence,
     defense, law enforcement, and national security agencies, including DHS. TTIC
     was established on May 1, 2003, just over three months after the President
     announced its creation.

     Further, on September 16, 2003, Homeland Security Presidential Directive
     – 6 (HSPD) directed the establishment of a second organization, the TSC, to
     consolidate the government’s initiatives for the appropriate and lawful use of
     information in terrorist screening processes. On that same date, the Secretary of



DHS Challenges In Consolidating Terrorist Watch List Information                    Page 7
                            Homeland Security, along with the Secretary of State, the Attorney General, and
                            the Director of Central Intelligence, signed a memorandum of understanding that
                            outlined general guidelines for TSC operations. In signing that memorandum, the
                            DHS Secretary agreed that the FBI would have responsibility for administering
                            the center. TSC began operations on December 1, 2003, just over two months
                            after its creation.

                            The FBI had extensive involvement in establishing the TSC. Its Foreign Terrorist
                            Tracking Task Force (FTTTF), an organization established to prevent terrorists
                            from entering the country and track those already in the country, was located with
                            the TSC. The FTTTF provided IT contractors and equipment to help initiate TSC
                            operations. The FBI also developed TSC’s initial concept of operations and took
                            much of the responsibility for its day-to-day management. More recently, FBI
                            support has included developing a “business case”8 to request funding from the
                            Ofﬁce of Management and Budget for the center for FY 2005. Currently, the TSC
                            director reports to FBI leadership.

                            DHS REASONS FOR NOT ASSUMING LEADERSHIP

                            DHS ofﬁcials offered various reasons as to why the department did not assume
                            responsibility under the Homeland Security Act for leading and coordinating the
                            watch list consolidation effort. Primarily, DHS ofﬁcials said that DHS initially
                            lacked the internal resources and infrastructure to carry out the effort. DHS faced
                            the enormous task of getting its own internal operations up and running. When
                            DHS was established, it assumed control of approximately 180,000 employees
                            from 22 federal agencies and ofﬁces. As the OIG reported in March 2004,9 DHS
                            faced major challenges in consolidating and integrating the myriad ﬁnancial
                            systems and operations inherited from its legacy agencies. Also, DHS was
                            working to design a human capital management system, develop a department-
                            wide IT infrastructure, consolidate its redundant procurement functions, and
                            institute an information assurance program.

                            In addition, DHS’ IAIP directorate, which has responsibility for coordination
                            and oversight of terrorist information sharing, was not prepared to take on
                            this interagency effort. The IAIP directorate lacked the resources to assume
                            responsibility for coordinating the interagency effort and had a number of other


8
  A business case is an outline of the objectives, desirable outputs, and beneﬁts of a proposed project.

9
  Review of the Status of Department of Homeland Security Efforts to Address Its Major Management Challenges, (OIG-04-21, March 

2004).

10
   Survey of the Information Analysis and Infrastructure Protection Directorate, (OIG-04-13, February 2004).



Page 8                                   DHS Challenges In Consolidating Terrorist Watch List Information
     internal issues that it ﬁrst needed to resolve.10 Many of the issues reportedly
     are being addressed at the highest levels within IAIP. Specifically, IAIP is
     having difﬁculty hiring staff with the appropriate clearances to support its
     risk and threat analysis mission. Because IAIP is a new organization, it needs
     to hire experienced intelligence analysts to undertake its mission. However,
     IAIP is competing with other federal organizations whose needs for intelligence
     analysts have increased since September 11, 2001. An IAIP official estimated
     that there are about ﬁve or six positions available within the intelligence
     community for every potential applicant with the proper clearance. This
     ofﬁcial also said that it is unrealistic to hire people without clearances and
     expect them to get the clearances soon after they come on board because the
     clearance process for new hires requires about 14 months. The resulting shortage
     of staff within IAIP has created long workdays for employees, which negatively
     affects morale and results in reactionary rather than proactive operations,
     according to a senior IAIP representative. Sending staff to support TTIC and TSC
     operations only exacerbates the difﬁcult stafﬁng situation.

     Another problem that IAIP faced was inadequate capabilities for managing
     national security information. When it was ﬁrst created, the directorate did not
     have an accredited “high-side” classiﬁed network and adequate, secure ofﬁce
     space, and equipment. The directorate also lacked established procedures and
     guidelines for handling classiﬁed data. Because of this, other federal agencies
     were unable to send it classiﬁed materials. More recently, in May 2004, an IAIP
     ofﬁcial told the OIG that it has since put in place policies and procedures for
     handling classiﬁed information, as well as a secure infrastructure for receiving
     such information.

     Further, IAIP ofﬁcials said that HSPD – 6 and the related memorandum
     of understanding established the TSC under the FBI and limited DHS to a
     supporting role in the watch list consolidation. These ofﬁcials further said that the
     directive gave the FBI not only operational control, but also strategic and policy
     coordination responsibility for the TSC and watch list consolidation activities.
     IAIP ofﬁcials could not provide documented legal assessments to support these
     assertions, however.

     According to the provisions of HSPD – 6, it should be carried out consistent with
     applicable laws, thereby supplementing, rather than supplanting, existing DHS
     authorities and responsibilities under the Homeland Security Act. Indeed, by
     giving the Attorney General responsibility for establishing TSC operations, the
     directive provides supplemental direction for carrying out provisions of the act.



DHS Challenges In Consolidating Terrorist Watch List Information                   Page 9
                               The directive does not assign to the FBI responsibility for oversight, policy, or
                               coordination across the various federal, state, and local government participants.
                               As such, the directive does not preclude DHS from carrying out such oversight
                               responsibilities pursuant to the Homeland Security Act.

                               In contrast to the situation at DHS, the intelligence community, and the FBI
                               were viewed as well positioned to get the job done quickly. The TTIC, under the
                               auspices of the Director of Central Intelligence, was able to incorporate resources
                               from the Department of State unit that had collected the majority of the terrorist
                               watch list information in the past. Speciﬁcally, in November 2003, in accordance
                               with provisions of the interagency memorandum of understanding that clariﬁed
                               HSPD – 6, the Department of State’s TIPOFF database was transferred to the
                               newly established TTIC. For 17 years, the TIPOFF database had been the only
                               U.S. government database containing purely terrorist information. Along with the
                               database, some of the Department of State’s employees from the TIPOFF program
                               were also transferred to TTIC to conduct research and analysis, providing the
                               center with the beneﬁt of experienced staff. A Department of State representative
                               said that these employees formed the core of the TTIC.

                               Further, the FBI was experienced in establishing command centers and well
                               prepared to mobilize the necessary personnel from across the country quickly
                               to establish the TSC. The FBI’s FTTTF had previously been tasked with
                               responsibilities similar to the TSC under HSPD – 2. A January 2003 Director
                               of Central Intelligence annual report11 supports this assertion. Speciﬁcally, this
                               report noted that the FTTTF would maintain a uniﬁed, unclassiﬁed, consolidated
                               tracking list and co-locate critical law enforcement, intelligence, and open source
                               data for analysis and decision making support. An FTTTF ofﬁcial said that, as
                               a result of this effort, FTTTF created in 2002 a consolidated tracking list, which
                               consists of TIPOFF, the FBI’s Violent Gangs and Terrorist Organization File, and
                               the FBI’s 22 Most Wanted List to support its analysis to identify associates of
                               known terrorists and their supporters.

                               A senior IAIP ofﬁcial said that having more experienced federal agencies move
                               ahead with watch list consolidation was the most expeditious way to proceed.
                               However, several DHS ofﬁcials said that the expectation is to place the TSC
                               under DHS control eventually. Speciﬁcally, the September 2003 interagency
                               memorandum of understanding includes a clause that requires a review of the
                               organization, structure, and progress of the TSC and allows for modiﬁcations
                               based on any recommendations that result from the review. Ofﬁcials both internal

11
     The 2002 Annual Report of the United States Intelligence Community, January 2003.



Page 10                                     DHS Challenges In Consolidating Terrorist Watch List Information
     and external to DHS have suggested that such modiﬁcations might include a
     transfer of responsibility for the watch list consolidation to DHS, speciﬁcally the
     IAIP directorate, as the Homeland Security Act requires. DHS could prepare for
     the transition by developing an operational plan outlining what needs to be done
     to take on the responsibility. But DHS’ assumption of the watch list consolidation
     effort as it currently exists would not be enough. Rather, DHS would need to
     provide the central oversight and strategic vision to ensure that interagency
     consolidation efforts are effective, coordinated, and progressing in the right
     direction.

     AD HOC APPROACH TO WATCH LIST 

     CONSOLIDATION CONTINUES 


     The manner through which the watch list consolidation has unfolded has not
     helped the nation break from its pattern of ad hoc approaches to counterterrorism.
     Speciﬁcally, in the years since the September 11 terrorist attacks, just as in the
     past, the government has continued to implement solutions in an uncoordinated
     manner. While the requirement to consolidate the multiple watch lists was clear,
     the approach to accomplishing it has not been so. Responsibility for consolidating
     multiple databases of watch list information has shifted among various federal
     organizations; the results of repeated efforts have been limited.

     Beginning in 2001, the White House Ofﬁce of Homeland Security became very
     involved in this issue, developing both short and long-term plans for watch list
     consolidation. According to a senior DHS ofﬁcial, the plans should have been
     implemented by the beginning of 2003. However, this was not accomplished, for
     reasons undisclosed to the OIG. In July 2002, the White House ofﬁce nonetheless
     released a “National Strategy for Homeland Security,” which discussed federal
     agency roles and comprehensive steps for mobilizing and organizing to protect
     against terrorist attacks, including watch list consolidation. According to the
     National Strategy, the FBI was establishing a consolidated watch list to serve as
     a central access point for information about people of investigative interest that
     would be fully accessible to the law enforcement and intelligence communities.

     Along these lines, the White House created an organization within the Department
     of Justice with speciﬁc responsibility for improving the sharing of terrorist
     information. On October 29, 2001, just over a month after the attacks of
     September 11th, the White House issued HSPD – 2, which directed the Attorney
     General to establish the FTTTF in coordination with the Department of State,
     the intelligence community, and other federal organizations. These entities



DHS Challenges In Consolidating Terrorist Watch List Information                 Page 11
                              were to work together to deny entry to suspected terrorists, as well as to locate,
                              detain, prosecute, or deport any aliens already present in the U.S. who were
                              suspected of supporting terrorism. Another FTTTF mission was to develop and
                              implement multi-year plans to enhance the investigative and intelligence analysis
                              capabilities of the CBP and the Immigration and Naturalization Service. Although
                              the presidential directive speciﬁcally did not require that these entities create a
                              consolidated database, it did direct them to recommend ways in which existing
                              federal databases could best be utilized to locate and apprehend potential terrorists
                              in the country. Further, in a January 2003 report to the Congress, the Director of
                              Central Intelligence said that the FTTTF would maintain a consolidated tracking
                              list and bring together law enforcement, intelligence, and open source data for
                              analysis and decision-making support.

                              The Intelligence Authorization Act for Fiscal Year 200312 also required the
                              creation of a “watch list” of suspected terrorists. It speciﬁcally required the
                              Director of Central Intelligence to establish and maintain a list of suspected
                              international terrorists and international terrorist organizations. The law further
                              called for the Director to prescribe requirements for the inclusion of an individual
                              or organization on the list, as well as provide for the sharing of that information
                              with federal, state, and local governments.

                              At about the same time that the Intelligence Authorization Act was approved,
                              the Homeland Security Act was passed. The Homeland Security Act required
                              the Under Secretary of IAIP to review, analyze, and make recommendations
                              for improvements in the policies and procedures governing the sharing of
                              law enforcement information, intelligence information, intelligence related
                              information, and other information related to homeland security within the federal
                              government, and between the federal government and state and local government
                              agencies and authorities. However, before IAIP began operations within the new
                              department, the President announced the creation of the TTIC. Establishment of
                              TSC followed in late 2003.

Interagency Watch List Consolidation Could Be Improved

                              While some progress has been made with the current watch list consolidation
                              approach, there remain a number of issues and challenges to effective interagency
                              sharing that have not yet been addressed. In the absence of central oversight and
                              a strategic approach to watch list consolidation, problems with uncoordinated


12
     Public Law 107-306, released on November 27, 2002.



Page 12                                    DHS Challenges In Consolidating Terrorist Watch List Information
     interagency planning, budgeting, stafﬁng, requirements deﬁnition, and policy
     management persist.

     PROGRESS IN WATCH LIST CONSOLIDATION

     With the current approach, the federal government has made some progress
     toward streamlined processes and enhanced terrorist information sharing.
     Whereas earlier, multiple agencies were independently collecting and reviewing
     watch list information to meet their respective missions, the federal government
     has, with the establishment of the TTIC and the TSC, brought agencies together
     to consolidate two of the main watch list processes: compiling intelligence
     information on suspected international terrorists; and ﬁltering and disseminating
     that information to help apprehend or track suspected terrorists within this
     country or keep them from entering U.S. territory in the ﬁrst place. Each of these
     processes and the responsible entities is discussed below.

     TTIC Has Helped Consolidate Terrorist Intelligence Information

     Establishment of TTIC brought together analysts from the Departments of State,
     Defense, Homeland Security, and Justice, as well as others in the intelligence
     community to compile and analyze intelligence data on potential terrorists. Under
     the auspices of TTIC, these analysts are managing and upgrading a consolidated
     all-source database on known and suspected foreign terrorists. The Department
     of State’s TIPOFF counterterrorist program served as a basis for the upgraded
     database. TTIC analysts enhanced TIPOFF to increase the functions of the
     database, and they are currently working on the next generation database to
     provide even greater functionality.

     Other improvements resulting from TTIC’s creation are improved coordination
     and more consistent information sharing.          (b)(2)High



     (b)(2)High




DHS Challenges In Consolidating Terrorist Watch List Information                Page 13
          Further, TTIC has provided greater access to its classiﬁed website, which has
          more than 2,600 registered intelligence community users, including DHS and
          Justice. When TTIC moves to its new location, the center will be located
          with counterterrorism divisions of the Central Intelligence Agency and the
          FBI, possibly resulting in even greater cooperation among federal intelligence
          agencies.

          TSC Has Consolidated Management and Dissemination of Terrorist Data

          TSC uses information from a range of sources to populate its watch list database.
          Most of the information that TSC receives is a sensitive but unclassiﬁed version
          of the intelligence information that TTIC maintains in its classiﬁed database.
          TSC also receives information about domestic terrorists from the FBI. Prior
          to September 11, 2001, this domestic information was not widely disseminated
          among federal agencies due to legal restrictions.          (b)(2)High



          (b)(2)High




          The TSC has brought together representatives from the FBI, Department of
          State, and a number of DHS component organizations, including the CBP,
          Transportation Security Administration, Secret Service, Immigration and Customs
          Enforcement, and Coast Guard to consolidate the information dissemination
          functions of the watch list process. These functions involve proposing names
          for inclusion in each agency’s database, operating a call center, and providing
          customer service. Some of the functions previously were done by federal
          agencies prior to watch list consolidation, while others are entirely new.
          (b)(2)High




Page 14                DHS Challenges In Consolidating Terrorist Watch List Information
     (b)(2)High




     One of the most important contributions of the TSC is the new link it establishes
     between law enforcement and intelligence agencies. Traditionally, law
     enforcement agencies have not coordinated with intelligence ofﬁcials to obtain
     information about suspected terrorists due to legal restrictions. Also, such
     detailed intelligence information, compiled to support the inclusion of individuals
     on watch lists, is highly classiﬁed and therefore not widely disseminated.
     However, the Patriot Act has provided for greater sharing of intelligence
     information among federal, state, and local law enforcement ofﬁcials. These
     ofﬁcials require this supporting information to supplement basic information
     contained in the unclassiﬁed TSC database. The additional information provides
     a better basis for identifying suspected terrorists among the people they encounter
     in the performance of their respective duties.

     TSC created a call center of screeners, available 24 hours a day and 7 days
     a week, to assist in verifying the identities of the persons encountered. TSC
     ofﬁcials said that these call center operations are expected to improve support for
     personnel in the ﬁeld, as well as help save time and money. TSC receives about
     (b)(2)High
         percent of its calls from CBP personnel, while approximately percent come
                                                                       (b)(2)High




     from state and local law enforcement ofﬁcers. TSC personnel help these callers
     determine whether the person they have in front of them is the person listed in the
     database. If there is a negative match, no further action is taken. When there is
     a positive or inconclusive match, call center personnel ensure that callers get the
     help they need to determine how to handle suspected individuals. For example,
     a local law enforcement ofﬁcer may be advised to arrest, detain, or question a
     suspect. Concurrently, TSC’s call center contacts the FBI’s Counter Terrorism
     Division, known as “CT Watch,” which ensures that local Joint Terrorism Task
     Force personnel provide assistance to law enforcement ofﬁcials.

     Further, TSC established a customer service department to provide outreach
     and disseminate information regarding federal counterterrorism activities. The
     customer service functions include responding to calls and e-mails for information
     from federal, state, and local organizations, as well as monitoring media and press
     releases. The customer service department also receives calls about individuals



DHS Challenges In Consolidating Terrorist Watch List Information                    Page 15
                          whose names have mistakenly been included on terrorist watch lists. TSC
                          representatives said that they planned to establish a program to address the calls
                          about such misidentiﬁcation.

                          CHALLENGES FACING THE CURRENT CONSOLIDATION
                          APPROACH

                          Despite the progress made, the watch list consolidation effort is hampered by a
                          number of issues that have not been effectively coordinated among all interagency
                          participants. Given the lack of central leadership and oversight of current watch
                          list consolidation efforts, matters such as planning, budgeting, stafﬁng, and
                          requirements deﬁnition continue to be dealt with on an ad hoc basis, posing a risk
                          to successful accomplishment of the goal.

                          Lack of a Strategic Plan

                          The Government Performance and Results Act of 1993,13 requires agencies to
                          prepare strategic plans that describe mission objectives and methods to attain
                          them. These agency plans must establish measurable goals for program activities
                          and describe the methods by which performance against those goals will be
                          measured.

                          A strategic and performance management approach could prove beneﬁcial for
                          managing the sharing of terrorist threat information, including watch list data.
                          Although the watch list consolidation is a highly visible, complex, and critical
                          undertaking, no strategic plan has been put in place to outline an interagency
                          approach to determining program scope, objectives, costs, alternatives, and
                          resource requirements. No interagency structure has been established to govern
                          the program, thereby ensuring active involvement of all relevant parties and their
                          commitment to sharing information and providing the staff and funding needed to
                          accomplish mission objectives. Also, no provision has been made for monitoring
                          program activities and measuring performance to ensure that the consolidated
                          watch list is delivered on time and within budget to meet user needs.

                          TSC ofﬁcials told us that they are relying on the September 2003 homeland
                          security directive, the corresponding memorandum of understanding, and other
                          operational documents to guide them. However, the directive and memorandum
                          do not provide sufﬁcient detail on how the relevant parties will work together
                          to oversee the program and address the crosscutting challenges faced. At the

13
     Public Law 103-62.



Page 16                             DHS Challenges In Consolidating Terrorist Watch List Information
     point that these documents were developed, planning for the consolidation
     effort was limited to involvement by agency heads and other senior level agency
     representatives. The resulting documents are directive and general in nature, not
     prescriptive and speciﬁc.

     Further, working level ofﬁcials developed a concept of operations for watch list
     consolidation based on this general guidance. The concept of operations was
     a good start, outlining the mission and vision for the program, and addressing
     the roles, responsibilities, and need for coordination among watch list partners
     and customers. However, it does not discuss an interagency forum or approach
     to overseeing program performance. At this operational level, managers were
     working to establish the TSC to meet the initial December 2003 deadline. In
     the press for time, they did not address the need for a strategy or an interagency
     program management structure to govern their activities. Rather, they have
     focused on a phased approach to establishing the screening center and managing
     day-to-day operations. Along the way, they have had to contend with a number of
     interagency challenges–budgeting, stafﬁng, requirements, and policy issues–that
     could be better addressed by a cross-federal decision-making forum.

     Budget

     The need for central oversight and strategic vision is reﬂected in the ad hoc
     manner in which program funding has been managed. The National Strategy for
     Homeland Security calls for federal agencies to allocate resources efﬁciently in
     carrying out activities to safeguard the nation against terrorism. However, in the
     case of watch list consolidation, it is not clear that this has been done, because the
     funding was provided from a number of different agencies and at different times
     with no central coordination. For example, TTIC received money from a number
     of federal sources, including DHS. DHS components also provided funding to
     the unclassiﬁed screening center operations. However, overall funding from other
     agencies for the ﬁrst year of these screening center operations was not managed in
     a coherent manner.

     One of the ﬁrst efforts to establish a terrorist screening and information
     dissemination organization began in FY 2002 with the FTTTF, administered
     by the FBI. FTTTF initially received interagency funds from the Defense
     Department, the Immigration and Naturalization Service, as well as its parent
     organization. In contrast, FTTTF funding for FY 2003 came from the FBI
     through a direct appropriation of $62 million, making the FBI solely responsible
     for the task force’s operations. Similarly, pursuant to HSPD – 6, the TSC received



DHS Challenges In Consolidating Terrorist Watch List Information                   Page 17
                            multi-agency funding in FY 2004 from the FBI, the Department of State, TTIC,
                            and DHS. The FBI contributed about $15 million to TSC in FY 2004. The
                            Department of State contributed over $1.5 million to the watch list consolidation
                            effort from funds allocated for the TIPOFF program.

                            Additionally, the chief information ofﬁcer organization within DHS received
                            $10 million for the watch list consolidation and provided $3 million of that
                            amount to the TSC. Approximately $3 million of the remaining $7 million was
                            allocated within DHS to align systems for integration with TSC’s systems. As of
                            February 2004, DHS had not yet allocated the remaining $4 million, but the chief
                            information ofﬁcer said that some of those funds still could be sent to TSC, if
                            needed. DHS’ IAIP directorate also provided money to the TSC and TTIC, in an
                            undisclosed, classiﬁed amount.

                            Whereas in FY 2004, TSC received interagency funding, TSC funding in FY 2005
                            may come solely from the FBI, following the same funding pattern as FTTTF.
                            Speciﬁcally, the Ofﬁce of Management and Budget noted in its December
                            2003 response to DHS’ budget submission that no funds for FY 2005 would
                            be provided directly to the department for the TSC and TTIC. Rather, the TSC
                            had requested its own appropriation of $29 million through the FBI for that
                            year. Accordingly, the TSC is developing a business case to support FY 2005
                            funding for its watch list consolidation activities managed by the FBI. By totally
                            controlling the funding, the FBI will also control much of the consolidation effort,
                            potentially making it more difﬁcult to obtain commitment or address the needs of
                            other federal agencies involved in terrorist watch list management, particularly
                            DHS, which was created speciﬁcally to help coordinate these efforts.

                            Although the Ofﬁce of Management and Budget provided some coordination of
                            the multi-agency funding for the watch list consolidation program, ofﬁcials from
                            this ofﬁce said that their primary role is to facilitate. For example, these ofﬁcials
                            assisted the various agencies in determining an equitable amount to contribute to
                            the TSC, based on a cost-beneﬁt analysis. The Ofﬁce of Management and Budget
                            did not get involved in managing the day-to-day operations or decision-making of
                            the TSC. In the absence of such central oversight, there has been no mechanism
                            fully to coordinate funding across agencies, develop cost estimates, or ensure
                            that the money spent is achieving measurable results. Ofﬁce of Management and
                            Budget Circular A-1114 suggests that development of a multi-agency business case



14
   Ofﬁce of Management and Budget Circular A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets, July 25,
2003.

Page 18                                   DHS Challenges In Consolidating Terrorist Watch List Information
     would be an effective way to help address these issues. Such businesses cases are
     used typically when a number of agencies share a common vision and mission.

     Stafﬁng Issues

     Stafﬁng the interagency consolidation effort is a signiﬁcant problem. TTIC and
     TSC require personnel with a range of skills to support their various program
     management, data analysis, IT specialist, law enforcement, and customer service
     functions. Given the responsibility for handling sensitive information and
     classiﬁed databases, such personnel generally need high-level clearances to be
     assigned. However, in the absence of a strategy and central leadership, there has
     been no effective means of coordinating among federal agencies to ensure that
     TTIC and TSC obtain the personnel resources they need. As such, while the TTIC
     plans to have about 300 analysts when fully staffed, in December of 2003 they
     had less than half of that number. Similarly, while TSC indicated a need for over
     160 employees by June 2004 to become fully operational, as of March 2004, it
     had only 84 staff on board.

     The problems with stafﬁng result from the fact that, since the TTIC and the TSC
     have no direct staff allocations, they have relied on the individual participating
     federal organizations to support their efforts. For national security reasons,
     the breakdown of staff provided to the TTIC remains undisclosed. However,
     component organizations within the Departments of State, Justice, and Homeland
     Security have all provided personnel to these organizations, but in an inconsistent
     manner. Few full-time staff have been provided; the majority of the staff have
     been provided on a temporary basis, either as detailees or assignees. A number of
     contractors also have been brought in to supplement the staff.

     For example, pursuant to the September 2003 memorandum of understanding
     on how the interagency TSC would operate, the Department of State’s Bureau of
     Intelligence and Research transferred to TTIC and TSC most of the full-time and
     contractor staff who had previously been responsible for the TIPOFF program.
     The FBI brought personnel from across the country experienced in establishing
     command centers to support the TSC on a temporary duty basis. Further, Justice’s
     FTTTF lent contractors to TSC to provide technical support.

     Despite requirements to play a major role in watch list consolidation, as of April
     2004 the DHS components collectively had provided only a mix of 19 full-time




DHS Challenges In Consolidating Terrorist Watch List Information                 Page 19
          and contractor staff to TSC. The breakdown of staff from the various DHS
          components is as follows:

              •   IAIP – 1
              •   Customs and Border Protection – 2
              •   Transportation Security Administration – 6
              •   Immigration and Customs Enforcement – 2
              •   U.S. Secret Service – 5
              •   U.S. Coast Guard – 3

          A senior TSC ofﬁcial said that in the long run having temporary personnel could
          be a problem because of the institutional knowledge lost when staff depart after
          their assignments are completed and the need to retrain incoming personnel.
          This ofﬁcial would prefer having permanent employees, but has had problems
          attracting cleared workers with the needed skill sets. As a result of not having
          enough employees, some consolidation activities are inadequately staffed or not
          getting done at all. For example, TSC has not completed many of the required
          memoranda of understanding to govern interagency operations because it does
          not have adequate legal staff. In addition, TSC has a shortage of IT personnel to
          develop and maintain the database.

          Due to the difﬁculty TSC has experienced in obtaining qualiﬁed permanent staff,
          some temporary positions are being extended. Not all employees are happy
          about this situation. Several DHS assignees said that they were not interested
          in working at TSC for an extended period of time for various reasons. For
          example, some believed that their work at the center was mundane and not career
          enhancing.

          User and Technical Requirements for Consolidated Watch List
          System Not Deﬁned

          Although the agencies participating in watch list consolidation have the common
          goal of supporting the identiﬁcation and arrest of terrorists, each agency has
          different requirements and restrictions concerning these activities due to the
          various statutes governing their work. For example, the laws concerning federal
          agency dealings with foreigners are less stringent than those that address dealings
          with U.S. citizens. In addition, law enforcers may have an immediate need for
          information to identify individuals, while consular ofﬁcers can generally take
          more time to obtain, review, or follow-up on the identifying information they
          receive. (b)(2)High




Page 20             DHS Challenges In Consolidating Terrorist Watch List Information
                              (b)(2)High




                                       Inadequate User Participation in Requirements Deﬁnition

                              There are a number of federal guidelines regarding gathering requirements for
                              system development projects. According to Ofﬁce of Management and Budget
                              Circular A-130,15 agencies should ensure the participation and commitment
                              of users when designing new IT systems. This helps ensure that the systems
                              developed deliver intended beneﬁts and meet mission needs. Addressing user
                              concerns is also critical to obtain the commitment of participating agencies. If
                              agency users do not think that their opinions are being heard, or if they do not
                              understand overall program directions, they are less likely to participate in a
                              meaningful way, reducing the chances of program success.

                              As of February 2004, TSC had not developed formal requirements for its
                              consolidated watch list database. Interagency working groups managed by the
                              FBI have been documenting watch list processes of the various agencies as a basis
                              for developing a concept of operations for the projected system. This is a critical
                              ﬁrst step to determine how technology will be applied to help improve watch list
                              processes. To a limited extent, this has involved identifying corresponding user
                              requirements, such as standard operating procedures and criteria for proposing
                              names for inclusion in the watch list database.

                              However, not all essential agencies were asked to participate in these initial
                              interagency working groups. For example, because the two organizations work
                              in close coordination with each other, Immigration and Customs Enforcement
                              represented the U.S. Citizenship and Immigration Services bureau at the working
                              group meetings. U.S. Citizenship and Immigration Services ofﬁcials should have
                              had their own representatives present at the meetings since their bureau collects
                              a large amount of information on foreigners through its immigration services
                              processes. U.S. Citizenship and Immigration Services could play a key role in
                              terrorist watch lists, but generally it is not consulted or included in such matters.

                              Additionally, the Department of State’s Consular Affairs bureau was not
                              represented at the working group meetings, although the ofﬁcials it has stationed
                              worldwide to review and approve applications for U.S. visas are often the ﬁrst


15
     Ofﬁce of Management and Budget Circular A-130, Management of Federal Information Resources, November 28, 2000.



                        DHS Challenges In Consolidating Terrorist Watch List Information                              Page 21
          to obtain identifying information on foreigners before they enter this country.
          The only information that consular affairs ofﬁcials have received from the TSC
          and TTIC has been through the Department of State’s Bureau of Intelligence
          and Research, which has its own unique requirements and cannot speak for the
          consular function. Also, there are no Consular Affairs representatives working at
          TSC or TTIC.

          Further, some users who attended the working group meetings to develop
          the concept of operations for TSC did not think that their needs were taken
          into consideration. One DHS representative said that a “top-down” approach
          was taken, in which the concept of operations was “pushed out” rather than
          built on input from working group participants. In January 2004, another
          DHS representative said that no working group meetings had been held since
          November 2003 and that he had not received anything from TSC outlining how
          the center would be managed, how personnel issues would be handled, or what
          the governance structure would be. As a result, this ofﬁcial was not sure how his
          agency’s watch list requirements were being addressed.

          Senior TSC ofﬁcials acknowledged that that there had been some problems
          with the FBI’s approach to develop the initial concept of operations. However,
          the director of the TSC said that she disbanded the working group shortly after
          beginning work at the TSC because she was not happy with the approach it had
          taken. In February 2004, TSC managers said that they would resume efforts to
          develop user requirements for the watch list consolidation the following month.
          These ofﬁcials said that they had assigned a project manager and planned to
          outline a schedule and an approach for the requirements gathering process. TSC
          will have a number of signiﬁcant issues to contend with as part of this process, as
          discussed below.

                 Differing Needs Regarding Name-Matching Algorithms

          Federal agencies have different requirements regarding the algorithms that will be
          used in the consolidated watch list database. “Algorithms” are formulas or rules
          for solving a problem in a ﬁnite number of steps. For counterterrorism purposes,
          algorithms support the capability to search watch list databases and check
          peoples’ names against those on the lists. The level of complexity that agencies
          require for algorithms varies greatly. For example, due to its responsibility to
          provide passport and visa processing worldwide, the Department of State has
          developed sophisticated name-searching algorithms that recognize names from




Page 22             DHS Challenges In Consolidating Terrorist Watch List Information
                                   (b)(2)High

     many diverse countries. 

     (b)(2)High




     (b)(2)High




              Reliance on the National Crime Information Center’s System

     Perhaps one of the TSC’s greatest accomplishments is the support that it
     provides to state and local law enforcement ofﬁcials in identifying domestic
     and international terrorists. Now these ofﬁcials can use the National Crime
     Information Center’s system to check suspects against TSC’s consolidated watch
     list database. However, according to testimony by an FBI ofﬁcial in November
     2003, the National Crime Information Center’s system will be able to handle user
     processing demands only through FY 2006, with an estimated growth rate of 17
     percent each year. This is a critical issue to consider as watch list requirements
     are developed because the center’s system may be one of the principal ones
     connected to TSC’s database once it is integrated.

     (b)(2)High




DHS Challenges In Consolidating Terrorist Watch List Information                Page 23
                  Technical Solutions to Integration of Watch List Systems 

                  Have Not Been Determined


          Once user requirements are deﬁned to provide a sound basis on which to proceed,
          interagency participants face the challenge of engineering an automated system
          that will integrate existing systems and provide real time access to a consolidated
          terrorist watch list database. This is a highly complex undertaking and, contrary
          to popular belief, was not expected to occur when TSC was created in December
          2003.

          Rather, TSC is taking an iterative approach to watch list consolidation. Phase
          1, which began with the September 2003 agreements to establish the TSC,
          (b)(2)High




          (b)(2)High
                                                                                      Phase
          2 of the program, from December 2003 to March 2004, consisted of developing
          the ﬁrst version of the consolidated database containing all suspected international
          and domestic terrorists. It is in Phase 3, scheduled for March to December 2004,
          that the single, integrated system, allowing either update of agency systems or
                                                                          (b)(2)High
          online query of the TSC database, will be developed.
          (b)(2)High




          (b)(2)High




          (b)(2)High




Page 24                DHS Challenges In Consolidating Terrorist Watch List Information
                   (b)(2)High




                   (b)(2)High




                   (b)(2)High




Additional Issues Relating to Interagency Sharing
of Terrorist Information Need to be Addressed

                   While not central to ongoing watch list consolidation efforts, there are a
                   number of additional challenges that affect interagency counterterrorist efforts.
                   (b)(2)High




                   (b)(2)High
                                                                                       Privacy is
                   another issue that could hinder both the watch list consolidation and related
                                (b)(2)High
                   systems.
                   (b)(2)High
                                                                                       Such issues
                   could be pursued in the context of DHS orchestration of the interagency watch list
                   consolidation effort.




              DHS Challenges In Consolidating Terrorist Watch List Information                  Page 25
          (b)(2)High




          (b)(2)High




          (b)(2)High




          (b)(2)High




Page 26                DHS Challenges In Consolidating Terrorist Watch List Information
                            PRIVACY

                            Privacy is a subject that is raised frequently with regard to creation of TTIC and
                            TSC. However, several privacy concerns related to watch list consolidation have
                            yet to be addressed. One concern is the lack of a privacy policy, agreed to by all
                            participants involved in watch list consolidation. Section 222 of the Homeland
                            Security Act created a management position with primary responsibility for
                            establishing privacy policy. Among other things, this policy formulation effort
                            was to be based on a privacy impact assessment of proposed DHS rules. A
                            DHS ofﬁcial said that TSC was created so quickly that the necessary privacy
                            impact review was not conducted. As a result, each participating organization is
                            following its own approved guidelines for addressing privacy issues.

                            A second concern is that citizens’ privacy rights may be violated due to methods
                            that airlines use to identify terrorists and threats to civil aviation. Recently,
                            the American Civil Liberties Union ﬁled a class action lawsuit that challenged
                            DHS’ no-ﬂy list, claiming that the list violates passengers’ constitutional rights
                            to freedom from unreasonable search and seizure, as well as their right to due
                            process of law. In addition, DHS has suspended CAPPS II, designed to replace
                            the no-ﬂy list, due to similar concerns about potential privacy violations. CAPPS
                            II would have required each passenger to give the airlines a birth date, home
                            phone number, and address prior to boarding a ﬂight. This information would
                            have been checked against government and commercial databases. Based on
                            analysis of the crosschecked information, passengers were to be assigned a
                            color-coded score, indicating the level of security risk that they may pose. GAO
                            reported that CAPPS II, as originally planned, did not provide adequate controls
                            over privacy.16

                            Third, a number of organizations involved in watch list consolidation were
                            conducting data mining activities without central oversight to ensure that they
                            complied with Homeland Security Act provisions regarding privacy. “Data
                            mining” involves analyzing large amounts of data to extract new kinds of useful
                            information. The Homeland Security Act authorizes the Under Secretary for
                            IAIP to utilize data mining and other advanced tools to analyze data to conduct
                            its threat assessment mission. However, several other DHS components, such as
                            the National Targeting Center, U.S. Citizenship and Immigration Services, CBP,
                            and Immigration and Customs Enforcement, also were conducting data mining
                            activities without coordinating with IAIP.

16
  Aviation Security: Challenges Delay Implementation of Computer-Assisted Passenger Prescreening System, U.S. General Accounting
Ofﬁce, (GAO-04-504T, March 17, 2004).


                      DHS Challenges In Consolidating Terrorist Watch List Information                                    Page 27
           As a result of such uncoordinated data mining activities, there is a potential for
           greater civil liberties violations and law enforcement errors. For example, in a
           January 2003 letter to the Attorney General, a U.S. senator raised concerns about
           the Department of Justice’s data mining activities. Two of the concerns expressed
           were (1) excessive government surveillance that infringes on privacy interests;
           and (2) the potential for an increase in false leads and law enforcement mistakes
           with regard to surveillance or arrests due to the sheer volume of information being
           collected and analyzed. Both such concerns could also apply to DHS data mining
           operations.
           (b)(2)High




           (b)(2)High




           (b)(2)High




               (b)(2)High




               (b)(2)High




               (b)(2)High




Page 28	                DHS Challenges In Consolidating Terrorist Watch List Information
                                            (b)(2)High




                                    (b)(2)High




                               (b)(2)High




                               (b)(2)High




17
     GAO-03-322, April 2003.




                        DHS Challenges In Consolidating Terrorist Watch List Information	   Page 29
             (b)(2)High




Recommendations

             The OIG recommends that the Under Secretary for Information Analysis and
             Infrastructure Protection:

                  1. 	 Clarify DHS’ and IAIP’s respective legal responsibilities under the
                       Homeland Security Act relative to the sharing of law enforcement,
                       intelligence, intelligence-related, and other homeland security
                       information; and, establish collection priorities and strategies for this
                       information.

                  2. 	 Establish and chair an interagency forum to build commitment; identify
                       staff, capital, technology, and other resource requirements; coordinate
                       allocation of the resources identiﬁed; establish performance goals; and,
                       oversee results of terrorist information sharing activities, including watch
                       list consolidation, across agency lines.

                  3. 	 Assign the staff and other resources needed to support the work of the
                       interagency forum.

(b)(2)High




Page 30	                  DHS Challenges In Consolidating Terrorist Watch List Information
                   4. 	 Ensure, within the context of the interagency forum, that user
                        requirements, policy concerns, and other issues related to terrorist
                        information sharing are reviewed and adequately addressed.


Management Comments and OIG Evaluation

              We obtained written comments on a draft of this report from the Under Secretary
              for Information Analysis and Infrastructure Protection. We have included a copy
              of the comments in their entirety at Appendix B.

              In the comments, the Under Secretary agreed that effective consolidation of the
              terrorist watch lists maintained by different government agencies is a critical
              step in defending the nation against future terrorist attacks. However, the Under
              Secretary disagreed with the report’s premise that either DHS or IAIP has lead
              responsibility within the federal government for consolidating terrorist watch lists.

              Speciﬁcally, the Under Secretary said that the report fails to recognize the
              legal authority of HSPD-6, which assigned the lead role for consolidating
              terrorist screening data to the Attorney General, Department of Justice. The
              Under Secretary commented that, in leading the TSC, the Attorney General has
              government-wide broad authority and not just an operational responsibility for
              watch list consolidation. The Under Secretary stated that the Homeland Security
              Act also does not mention watch list consolidation and does not provide any
              speciﬁc authority to DHS in this regard. The Under Secretary said that the OIG’s
              report does not cite any statute, regulation, legislative history, HSPD, or other
              authority to back up its assumption that DHS is to have responsibility for the
              watch list consolidation. Nonetheless, the Under Secretary noted that within the
              HSPD-6 structure, DHS is playing a leadership role.

              On the basis of these views, the Under Secretary non-concurred with the OIG’s
              recommendations. The following discussion provides the OIG’s evaluation of
              each of the Under Secretary’s comments, as well as a response to his more general
              observations concerning the OIG’s audit approach.

                   • 	 Views on What Constitutes Watch List Consolidation: The Under
                       Secretary is working from a narrow view that the TSC alone constitutes
                       watch list consolidation. On the contrary, the TSC and its functions are
                       just one part of a larger process, which the OIG outlines in its report.
                       The process involves different agencies with various roles and, as such,



         DHS Challenges In Consolidating Terrorist Watch List Information	                     Page 31
                         is supported principally by two interagency organizations. Speciﬁcally,
                         the TTIC, under the auspices of the Director of Central Intelligence,
                         is responsible for gathering, coordinating, and assessing terrorist-
                         related intelligence, which the Department of State and the intelligence
                         community principally provide. The TSC subsequently screens and
                         disseminates that information to a variety of customers. HSPD-6
                         discusses not just the TSC, but also the TTIC, and outlines the TSC’s role
                         relative to that of the TTIC. For example, among other functions, the
                         TSC is to maintain a consolidated terrorist screening database containing
                         a sensitive but unclassiﬁed subset of the information obtained from the
                         TTIC and the FBI.

                     •   Overriding Authority of HSPD-6: The OIG agrees with the Under
                         Secretary that HSPD-6 directed the Attorney General to establish the
                         TSC. Also, according to the related September 2003 memorandum of
                         understanding, the Attorney General is responsible for administering
                         TSC operations in coordination with the various participating agencies.
                         However, it is not the responsibility of the TSC to coordinate general
                         policies or strategies for managing terrorist information across
                         agency lines. Although the TSC brings together in one location the
                         representatives of the various participating agencies, the representatives
                         work to fulﬁll their individual agency missions in screening and
                         disseminating terrorist watch list information to those who need it.

                         In contrast, per the Homeland Security Act, ensuring effective
                         management of terrorist information across agency lines is an intrinsic
                         part of DHS’ primary mission of preventing terrorist attacks within the
                         U.S. Given its responsibilities under the Homeland Security Act to
                         improve the policies and procedures governing the sharing of information
                         relating to homeland security threats, IAIP is the organization within the
                         department that should play this role. The Homeland Security Act not
                         only establishes an Under Secretary for IAIP, but also delineates about
                         20 explicit functions for this ofﬁcial.19 No less that six of these functions,
                         and perhaps more, relate in some capacity to the creation, maintenance,
                         and dissemination of watch list information. While none of these
                         functions explicitly identify “watch list” information, neither do they
                         exclude it. Speciﬁcally, according to the various parts of 6 USC 121 (d),
                         the Under Secretary is to:


19
     6 USC 121(d).



Page 32                   DHS Challenges In Consolidating Terrorist Watch List Information
                    (1) “assess, receive, and analyze...information...and to integrate such
                         information” to identify, detect and assess terrorist threats;
                    (8) “review, analyze, and make recommendations for improvements
                         in the policies and procedures governing the sharing” of
                         homeland security information;
                    (10) in consultation with the Director of Central Intelligence and
                         others, “establish collection priorities and strategies for
                         information... relating to threats of terrorism;”
                    (13) request and to obtain additional information from other federal,
                         as well as state and local government agencies, as well as
                         the private sector, relating to threats of terrorism;
                    (14) establish and utilize secure communications to “disseminate
                         information acquired and analyzed by the Department;” and
                    (15) ensure that information databases and analytical tools developed
                         or used by DHS are compatible with relevant information
                         databases of other federal agencies.

               Based on these citations, DHS has an important and dominant role to
               play in watch list consolidation—a role that it is not fully executing.
               To the extent the department is suggesting that HSPD-6 supersedes the
               Homeland Security Act, such an argument clearly fails. First established
               by the President in the aftermath of the September 11, 2001, terrorist
               attacks, this and other directives provide guidance to the executive
               branch, but have not been published in the Federal Register. Such
               directives plainly cannot supersede a statute passed by the Congress and
               signed into law by the President. HSPD-6, by its very terms, “is intended
               only to improve the internal management of the executive branch” and
               “does not alter existing authorities or responsibilities of department and
               agency heads..…”

               As such, HSPD–6 does not preclude DHS from carrying out its
               interagency coordination and oversight responsibility. However, DHS
               has not conducted or documented a legal assessment of the Homeland
               Security Act to clearly deﬁne these responsibilities. That is why the OIG
               recommends that such an assessment be conducted.

          • 	 Government-wide Attorney General Authority for Watch List
              Consolidation: Despite the Under Secretary’s comment that the
              Attorney General has government-wide broad authority for watch list
              consolidation, the OIG could ﬁnd no reference in HSPD-6 or the related



DHS Challenges In Consolidating Terrorist Watch List Information	                   Page 33
                              memorandum of understanding to this effect. Rather, as previously
                              stated, HSPD-6 directed that the Attorney General establish and
                              administer the interagency TSC organization in coordination with the
                              Department of State, DHS, and the Director of Central Intelligence.
                              Under the Attorney General’s administration, the TSC is staffed
                              with assignees and other ofﬁcials from the federal departments and
                              agencies that the TSC supports. Working together, the interagency TSC
                              representatives collaborate on terrorist screening and dissemination
                              activities. The Attorney General does not have broad authority for
                              the entire watch list process, which involves both TTIC and TSC, as
                              discussed above.

                          • 	 Homeland Security Act Citations Regarding DHS’ Leadership Role:
                              The OIG disagrees with the Under Secretary’s comments that the
                              report includes no speciﬁc citations from the Homeland Security Act
                              of 2002 to back up its assertion that DHS is to have a leadership role
                              in watch list consolidation. Speciﬁcally, the OIG states on page 4 of
                              the report that the Homeland Security Act requires the Under Secretary
                              for IAIP to consult with the Director of Central Intelligence and other
                              appropriate intelligence, law enforcement, or other elements of the
                              federal government to establish collection priorities and strategies for
                              information relating to threats of terrorism against the U.S.20 The Act
                              also directs the Under Secretary for IAIP to review, analyze, and make
                              recommendations to improve the policies and procedures governing the
                              sharing of law enforcement, intelligence, intelligence-related, and other
                              information relating to homeland security.21

                              In line with these requirements, in the DHS strategic plan, the Secretary
                              identiﬁed seven key priorities for the department in its second year
                              of operations, including establishment of a fully integrated watch list
                              database in the TSC by the end of 2004 to provide immediate updates to
                              federal border-screening and law-enforcement systems. Building upon
                              this stated DHS priority, the Senate Appropriations Committee, in its
                              report accompanying the DHS Appropriations Bill for 2005, requests that
                              the department report on the status of its efforts to consolidate multiple,




20
     6 USC 121 (d)(10).
21
     6 USC 121 (d)(8).


Page 34                         DHS Challenges In Consolidating Terrorist Watch List Information
               overlapping, and inconsistent terrorist watch lists; reconcile different
               policies and procedures governing whether and how terrorist watch
               list data are shared with other agencies and organizations; and resolve
               fundamental differences in the design of the system that houses the watch
               list so as to achieve consistency and expeditious access to accurate,
               complete, and current information.

          • 	 “Watch List Consolidation” Not Speciﬁed in the Homeland Security
              Act: OIG agrees with the Under Secretary that the Homeland Security
              Act does not include the term “watch list consolidation.” Laws typically
              are not written to include such speciﬁc terminology, which has almost
              become a buzzword in the current environment. It should be noted,
              furthermore, that HSPD-6 also does not use the term “watch list.”
              However, by assigning responsibility to IAIP for “establishing collection
              priorities and strategies for information relating to threats of terrorism
              against the U.S” and “improving the policies and procedures governing
              the sharing of homeland security information,” the law gives DHS broad
              responsibilities that encompass watch list consolidation.

               As the OIG states on page 4 of this report, section 6 USC 482 of the
               law also deﬁnes, “homeland security information” as any information
               possessed by a federal, state, or local agency that: (1) relates to the
               threat of terrorist activity; (2) relates to the ability to prevent, interdict,
               or disrupt terrorist activity; (3) would improve the identiﬁcation or
               investigation of a suspected terrorist or terrorist organization; or (4)
               would improve the response to a terrorist act. The OIG agrees with
               the Under Secretary that this deﬁnition is drawn from a section of
               the Homeland Security Act regarding facilitating homeland security
               information sharing procedures and not from the portion of the law
               regarding speciﬁc IAIP responsibilities. However, that does not make the
               deﬁnition any less relevant to the topic of watch list consolidation. The
               OIG does not assert that section 6 USC 482 ascribes authority to DHS for
               watch list consolidation. The OIG cites the deﬁnition in section 6 USC
               482 only to help clarify language in another section of the law that does
               give IAIP such authority.

          • 	 DHS Leadership Role in Watch List Consolidation: Although the Under
              Secretary comments that within the HSPD-6 structure, DHS is playing
              a leadership role in watch list consolidation, throughout his comments,
              he also says that the FBI is leading the effort. The Under Secretary’s



DHS Challenges In Consolidating Terrorist Watch List Information	                     Page 35
               comments appear to be contradictory. Since the OIG agrees that the
               FBI is leading the TSC, DHS inevitably is left to play a supporting
               role in its operations. To this end, DHS has provided ﬁnancial and
               human resources to the TSC, as well as similar support to the TTIC.
               Nonetheless, the Under Secretary tends to equate leadership of the watch
               list consolidation with administration of the TSC’s terrorist information
               screening and dissemination function alone and, as such, perceives the
               effort from an operational point of view, narrowly focused on the TSC.
               In contrast, in its report, the OIG assesses the end-to-end watch list
               consolidation process, which requires a larger, more overarching strategic
               planning and coordination approach. The OIG does not intend to suggest
               by this analysis that the TSC has no role to play in the consolidation of
               watch lists, but only that whatever role it does play must be subordinated
               to that of IAIP.

           • 	 OIG Report Goes Beyond the Scope of Stated Objectives: The Under
               Secretary says that the OIG report details assumptions that are beyond
               the scope of its objectives. The OIG does not agree and believes that it
               conducted its review well within the parameters of both its legal authority
               and its stated goals. Speciﬁcally, the OIG based its review on Homeland
               Security Act requirements that DHS lead and coordinate interagency
               activities to share terrorist information. This legal requirement provides
               a broad basis for DHS OIG review of the watch list consolidation effort.
               Further, because DHS has contributed signiﬁcant resources to the watch
                                                                                    (b)(2)High
               list consolidation and its CBP bureau alone comprises about percent
               of the TSC’s customers, the OIG has a valid interest in ensuring that the
               department effectively meets its responsibility for ensuring successful
               accomplishment of the program. As such, the OIG conducted its review
               with the stated objectives of: (1) determining DHS’ role in working with
               other agencies to consolidate terrorist watch list systems and operations;
               (2) evaluating the effectiveness of plans and activities to standardize
               and consolidate the watch list; and (3) identifying any obstacles and
               challenges encountered.

               The OIG’s audit work and ﬁndings directly correlate to these
               objectives. Speciﬁcally, the OIG examined legal and background
               information and met with representatives of each of the principal
               agencies participating in watch list coordination—including DHS, the
               Defense Intelligence Agency, the Department of State, the Department
               of Justice, and the Central Intelligence Agency—to determine how well



Page 36	         DHS Challenges In Consolidating Terrorist Watch List Information
               DHS was coordinating with them. The OIG also evaluated extensive
               documentation concerning the interagency approach to accomplishing the
               end-to-end watch list consolidation, not just the TSC function. Neither
               the OIG review nor its report was intended to provide an assessment of
               operations at either the TTIC or the TSC. Rather, the OIG provides a
               factual and balanced discussion of the watch list consolidation process,
               including accomplishments as well as challenges at both organizations.
               To validate its ﬁndings, the OIG obtained informal comments on a draft
               of the report from all of the agencies visited as part of its review. The
               OIG reviewed the comments and made changes to the report where
               deemed appropriate.

          • 	 OIG Meetings with Department of Justice, FBI Ofﬁcials: The Under
              Secretary’s comment that the OIG did not meet with any of the FBI
              leadership or other employees at the TSC is not correct. The OIG met
              with senior ofﬁcials at the TSC, the FTTTF, and a Department of Justice
              inspections unit, all of whom had pertinent information and management
              perspectives to provide concerning terrorist watch list consolidation.
              The OIG would have welcomed the opportunity to interview other
              Department of Justice personnel at the TSC, but was speciﬁcally
              prohibited from doing so by senior department managers. Given that the
              OIG focused its audit on watch list consolidation management strategies
              and coordination from a DHS perspective, it was not essential that
              the OIG meet extensively with FBI personnel regarding internal TSC
              operations.

          • 	 Sweeping Observations Regarding the TSC: The report does not make
              sweeping observations about the TSC, as the Under Secretary suggests.
              Rather, as previously stated, the OIG based its ﬁndings and conclusions
              on cumulative data collected and interviews conducted at all of the
              principal organizations involved in the end-to-end interagency watch list
              consolidation effort. The OIG’s report ﬁndings and observations largely
              concern DHS’ leadership responsibility for watch list consolidation and
              the issues and challenges that need to be coordinated and addressed
              across agency lines. It is both inevitable and appropriate that a number
              of the more speciﬁc issues that the OIG presents in its report involve
              the TSC because this is where much of the activity and a majority of
              DHS’ resources for watch list consolidation were concentrated during




DHS Challenges In Consolidating Terrorist Watch List Information	               Page 37
                  the course of the OIG’s review. However, the report also discusses
                  issues with regard to the TTIC and other agencies that comprised the
                  consolidation effort.

          Finally, the Under Secretary offers no comments regarding the critical need
          for improved oversight and strategic management of the interagency terrorist
          watch list consolidation program. The Under Secretary does not address issues
          that the OIG raised concerning the need for coordinated planning, budgeting,
          stafﬁng, and requirements deﬁnition activities across agency lines to ensure
          successful accomplishment of watch list consolidation goals. Due to HSPD-6,
          the Under Secretary repeatedly disavows DHS responsibility for leadership of
          terrorist information sharing activities as they concern watch list consolidation.
          However, the Under Secretary also does not address the issue of IAIP’s broad,
          standing responsibility under the Homeland Security Act for governance of
          terrorist information sharing across agency and government lines, HSPD-6
          notwithstanding. Coordinating terrorist information sharing is a major part of
          achieving DHS’ broad mission to prevent and reduce the vulnerability of the
          United States to terrorist attack. “Connecting the dots” and ensuring better
          communications and information exchange among disparate federal, state, and
          local government entities for counter-terrorist purposes is a large part of why
          DHS was created. If DHS, or speciﬁcally IAIP, does not assume this interagency
          coordination responsibility, the question remains, who will?




Page 38             DHS Challenges In Consolidating Terrorist Watch List Information
                                                                   Appendix A
                                                                   Scope and Methodology



     The OIG researched laws related to DHS’ responsibility for coordinating federal
     information sharing activities in support of counterterrorism. The OIG reviewed
     prior GAO reports and contacted GAO ofﬁcials to learn more about their ﬁndings
     on terrorist watch lists. Additionally, OIG researched the internet to obtain
     published news articles, congressional testimony, and private industry studies on
     watch list consolidation activities.

     The OIG met with senior IAIP ofﬁcials to learn about their roles, responsibilities,
     and activities concerning terrorist watch list consolidation. The OIG interviewed
     attorneys from the Ofﬁce of the Chief of Staff and the Ofﬁce of General Counsel
     to ﬁnd out about DHS’ involvement in establishing the TTIC and the TSC.
     Ofﬁcials within the Ofﬁce of the Chief Information Ofﬁcer told the OIG about
     strategies for integrating DHS systems with the TSC database. The OIG met with
     representatives from the Transportation Security Administration, U.S. Citizenship
     and Immigration Services, Border and Transportation Security, Immigration and
     Customs Enforcement, CBP, and the National Targeting Center—to learn about
     their involvement and commitment to the overall watch list consolidation effort.

     TTIC ofﬁcials provided an overview of their systems and processes for managing
     intelligence information on terrorists and their working relationships with the
     various federal participants in the watch list consolidation. Further, the OIG met
     with TSC ofﬁcials to learn about coordination with DHS to establish the screening
     center, processes for proposing individuals for inclusion on terrorist watch lists,
     dissemination of terrorist information, and development of the consolidated
     database. The OIG discussed TSC’s approach to gathering user requirements to
     support implementation of the integrated watch list database. The OIG reviewed
     plans, memoranda, and other documents that TSC ofﬁcials provided pursuant
     to these discussions. The OIG met with DHS employees detailed to the TSC
     to discuss their roles and responsibilities for supporting watch list nominations,
     call center operations, and customer service. The OIG discussed with both TTIC
     and TSC ofﬁcials their interagency plans for providing the systems, facilities,
     personnel, and ﬁnancial resources to support the overall consolidation.

     Representatives from other federal agencies told the OIG about their participation
     and commitment to watch list consolidation efforts. Speciﬁcally, a Defense
     Intelligence Agency representative told the OIG about Defense coordination with
     TTIC. An ofﬁcial at the Department of Justice’s National Crime Information
     Center discussed the center’s system for disseminating watch list information
     to federal, state, and local law enforcement ofﬁcials. The OIG also interviewed
     a representative from Justice’s FTTTF to learn about their involvement in the



DHS Challenges In Consolidating Terrorist Watch List Information                  Page 39
Appendix A
Scope and Methodology



                   establishment of TSC and their continuing coordination with TSC concerning
                   counterterrorist activities. A representative of the FBI’s Inspection Division
                   provided highlights of an internal inspection that involved watch list activities.
                   The OIG met with representatives from the Department of State regarding their
                   systems for managing watch list data. To gain perspectives on interagency
                   funding of the consolidation effort, the OIG met with the Ofﬁce of Management
                   and Budget.

                   Further, representatives from the Heritage Foundation discussed studies they
                   recently published on terrorist information sharing. A representative from the
                   9/11 Commission met with the OIG to learn about its review objectives, approach,
                   and preliminary ﬁndings. The OIG also attended several congressional hearings
                   to learn about watch list consolidation progress.

                   The OIG conducted this review from October 2003 to May 2004 at DHS,
                   Department of Defense, Department of Justice, Department of State, and Central
                   Intelligence Agency locations in the Washington, DC metropolitan area, and at the
                   Criminal Justice Information Service in Clarksburg, WV. The OIG performed its
                   work according to generally accepted government auditing standards.

                   The principal OIG points of contact for the audit are Frank Deffer, Assistant
                   Inspector General for Information Technology Audits, (202) 254-4100; and
                   Sondra McCauley, Director, Information Management, (202) 254-4212. Major
                   OIG contributors to the audit are identiﬁed in Appendix C.




Page 40                      DHS Challenges In Consolidating Terrorist Watch List Information
                                                                   Appendix B
                                                                   Management Comments




DHS Challenges In Consolidating Terrorist Watch List Information                 Page 41 

Appendix B
Management Comments




Page 42               DHS Challenges In Consolidating Terrorist Watch List Information
                                                                   Appendix B
                                                                   Management Comments




DHS Challenges In Consolidating Terrorist Watch List Information                 Page 43 

Appendix B
Management Comments




Page 44               DHS Challenges In Consolidating Terrorist Watch List Information
                                                                   Appendix B
                                                                   Management Comments




DHS Challenges In Consolidating Terrorist Watch List Information                 Page 45 

Appendix C
Major Contributors to this Report



                      Frank Deffer, Assistant Inspector General, Information Technology Audits

                      Sondra McCauley, Director, Information Management Division;

                      Barbara Ferris, IT Audit Manager; 

                      John Shiffer, IT Auditor; and

                      Marlow Henderson, IT Auditor.





Page 46                         DHS Challenges In Consolidating Terrorist Watch List Information
                                                                   Appendix D
                                                                   Report Distribution



     Department of Homeland Security

     Secretary
     Deputy Secretary
     General Counsel
     Chief of Staff
     Chief Information Ofﬁcer
     DHS OIG Liaison
     DHS Public Affairs

     Ofﬁce of Management and Budget

     Homeland Bureau Chief
     DHS OIG Budget Examiner

     Congress

     Congressional Oversight and Appropriations Committees, as appropriate




DHS Challenges In Consolidating Terrorist Watch List Information                Page 47
Page 48   DHS Challenges In Consolidating Terrorist Watch List Information
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
